No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
EMILIO GARZA,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A

Judgment and Opinion of Fifth Circuit

Appendix B

Judgment and Sentence of the United States District Court for the Northern
District of Texas

APPENDIX A

Case: 19-10363

Document: 00515302023

Page: 1

Date Filed: 02/07/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10363
Summary Calendar

FILED
February 7, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
EMILIO GARZA,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:16-CR-261-1
Before CLEMENT, ELROD, and OLDHAM, Circuit Judges.
PER CURIAM: *
Appealing his guilty plea conviction for being a felon in possession of a
firearm, Emilio Garza raises an argument that is foreclosed by United States
v. Alcantar, 733 F.3d 143 (5th Cir. 2013). In Alcantar, 733 F.3d at 145-46, we
rejected the argument that Nat’l Fed’n of Indep. Bus. v. Sebelius, 567 U.S. 519
(2012), affected our prior jurisprudence rejecting challenges to the
constitutionality of 18 U.S.C. § 922(g)(1). Accordingly, the motion for summary
affirmance is GRANTED, the alternative motion for an extension of time to file
a brief is DENIED, and the judgment of the district court is AFFIRMED.
Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

APPENDIX B

U.S. DISTRICT COURT
NORTIIER.\J DISTRICT OF TEXAS

Case 4:16-cr-00261-A Document 63 Filed 03/22/19

Page 1 of 5 PageID
350
FlLED

alinittb ~tates Jlistritt Qrou t
orthern District of Texas
Fort Wonh Division

Mr~n

2 2 '1..:J,
J

CLI~ RK, ll.S. DISTRICT COURT

U ITED STATES OF AMERICA

§

By--~~--­

V.

§

Case Number: 4:16-CR-261-A(Ol)

EM ILI O GARZA

§

Dq uuy

JUDGMENT IN A CRIMINAL CASE

The government was represented by Assistant United States Attorney Robert Boudreau.
The defendant, EMILIO GARZA, was represented by Federal Public Defender through Assistant
Federal Public Defender John Stickney.
The defendant pleaded guilty on December 15, 20 16 to the one count indictmen t filed on
ovembcr 9, 20 16. Accordi ngly, the court ORDERS that the defendant be, and is hereby,
adjudged gui lty of such count invol ving the following otfense:
Title & Section I Nature of Offense
18 U.S.C. § 922(g)( I) Felon in Possession of Fireann

Date Offense Co ncluded
I OJI 1/16

Count
I

As pronounced and imposed on March 22. 2019, the defendant is resentenced as provided
in thi s judgment.
The court ORDERS that the defendant immed iately pay to the United States, through the
Clerk of this Court, a special assessment of$ 100.00. The defendant has paid $25.00 of the special
assessment.
The court further ORDERS that the defendant shall notify the United States Attorney fo r
thi s distri ct within 30 days of any change of name, residence address, or mailing address, as set
forth below, until all fi nes, restitution, costs, and special assessments imposed by this Judgment
are fu ll y paid. If ordered to pay restitution, the defendant shall notify the court, through the clerk
of this court. and the Attorney General, through the United States Attorney for this district, of
any material change in the defendant's econom ic circumstances.
IMPRISONMENT
The court further ORDERS that the defendant be. and is hereby, comm itted to the
custody of the United States Bureau of Prisons to be imprisoned fo r a term of 120 months to run
consecuti vely to any time that remains to be served in Case No. 148820 in the 213 1h District
Court ofTarrant; and concurrently to any time remaining to be served in Case 'o. 1475067 in
the 2 13' 11 District Court ofTarrant County.
The defendant is remand ed to the custody of the United States Marshal.

Case 4:16-cr-00261-A Document 63 Filed 03/22/19

Page 2 of 5 PageID 351

SUPERVISED RELEASE
The court further ORDERS that. upon release from imprisonment. the defendant shall be
on supervised release for a term of three (3) years and that while on supervised release, the
defendant shall comply with the standard conditions ordered by this Court and shall comply with
the following additional conditions:
1.

The defendant shall not commit another federal, state, or local crime.

2.

The defendant shall not unlawfully possess a controlled substance.

3.

The defendant shall cooperate in the collection of DNA as directed by the U.S. Probation
Officer, as authorized by the Justice for All Act of 2004.

4.

The defendant shall participate in mental health treatment services as directed by the
probation officer until successfully discharged, which services may include prescribed
medications by a licensed physician. with the defendant contributing to the costs of
services rendered at a rate of at least $25 per month.

5.

The defendant shall refra in from any unlawful use of a controlled substance, subm itting
to one drug test within 15 days of release from imprisonment and at least two periodic
drug tests thereafter, as directed by the probation officer pursuant to the mandatory drug
testing provision ofthe 1994 crime bill.

6.

The defendant shall also comply with the Standard Conditions of Supervision as
hereinafter set forth.
Standard Conditions of Supervision

1.

The defendant shall report in person to the probation office in the district to which the
defendant is released within seventy-two (72) hours of release from the custody of the
Bureau of Prisons.

2.

The defendant shall not possess a firearm. destructive device, or other dangerous weapon.

3.

The defendant shall provide to the U.S. Probation Officer any requested financial
information.

4.

The defendant shall not leave the judicial district where the defendant is being supervised
without the permission of the Court or U.S. Probation Officer.

5.

The defendant shall report to the U.S. Probation Officer as directed by the court or U.S.
Probation Officer and shall submit a truthful and complete written report within the first
five (5) days of each month.

6.

The defendant shall answer truthfully all inquiries by the U.S. Probation Officer and
follow the instructions of the U.S. Probation Officer.

7.

The defendant shall support his dependents and meet other family responsibilities.
2

Case 4:16-cr-00261-A Document 63 Filed 03/22/19

Page 3 of 5 PageID 352

8.

The defendant shall work regularly at a lawful occupation unless excused by the U.S.
Probation Officer for schooling. training. or other acceptable reasons.

9.

The defendant shall notify the probation officer at least ten ( 10) days prior to any change
in residence or employment.

I 0.

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess.
use, distribute, or administer any narcotic or other controlled substance, or any
paraphernalia related to such substances, except as prescribed by a physician.

II.

The defendant shall not frequent places where controlled substances are illegal ly so ld.
used, distributed, or administered.

12.

The defendant shall not associate with any persons engaged in criminal activity, and shall
not associate with any person convicted of a felony unless granted permission to do so by
the U.S. Probation Ofticcr.

i 3.

The defendant shall permit a probation officer to visit him at any time at home or
elst'whcre and shall permit confiscation of any contraband observed in plain view by the
U.S. Probation Officer.

14.

The defendant shall notify the probation otJicer within seventy-two (72) hours of being
arrested or questioned by a law enforcement officer.

15.

The defendant shall not enter into any agreement to act as an informer or a special agent
of a law enforcement agency without the permission of the court.

16.

As directed by the probation oflicer, the defendant shall notify third parties of risks that
may be occasioned by the defendant's criminal record or personal hi story or
characteristics, and shall perm it the probation of1icer to make such notifi cations and to
confirm the defendant's compliance with such notification requirement.

The court hereby directs the probation officer to provide defendant with a written
statement that sets forth all the conditions to which the term of supervised release is subj ect, as
contemplated and required by 18 U.S.C. § 3583(f).
FINE
The court did not order a fine because the defendant does not have the financial resource
or future earning capacity to pay a fine.

FORFEITURE
The Court ordered that any firearm and ammunition involved in or used in the
commission of the offense, including, but not limited to. the Sig Sauer, Model P290RS, 9millimeter pisto l, Serial No. 26CO 12130, was forfeited to the United States of America on April
13,20 17.
3

Case 4:16-cr-00261-A Document 63 Filed 03/22/19

Page 4 of 5 PageID 353

STATEMENT OF REASONS
The ..Statement of Reasons" and personal information about the defendant are set forth
on the attachment to this judgment.
Signed this the 22nd day o f March, 2019.

4

Case 4:16-cr-00261-A Document 63 Filed 03/22/19

Page 5 of 5 PageID 354

RETURN
I have executed the imprisonment part of thi s Judgment as follo\vS:

Defend ant delivered on _ _ _ __ _ _, 2019 to _ __ _______ _ _ _ _ __
at _ _ _ _ - - - - - - - - - - - -- - - -'with a certified copy of thi s Judgment.

United States Marshal for the
orthern District ofTexas

By _________________________ _____
Deputy United States Marshal

5

